No. ______
In the

Supreme Court of the United States
__________________
HARRY’S NURSES REGISTRY, HARRY DORVILIER,
Petitioners,
v.
CLAUDIA GAYLE, Individually, On Behalf of All Others
Similarly Situated and as Class Representative, et al.,
Respondents.
__________________
On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Second Circuit

__________________

PETITION FOR A WRIT OF CERTIORARI
__________________
MICHAEL CONFUSIONE
Counsel of Record
HEGGE & CONFUSIONE, LLC
P.O. Box 366
Mullica Hill, NJ 08062-0366
(800) 790-1550
mc@heggelaw.com
Counsel for Petitioners

Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
QUESTION PRESENTED
Is the finding that the employer has violated
Section 206 or Section 207 of the Fair Labor Standards
Act, 29 U.S.C. § 201 et. seq, a condition precedent that
must occur before an employee’s private right of action
is triggered under Section 216(b)?

ii
PARTIES TO THE PROCEEDINGS
Petitioners Harry’s Nurses Registry and Harry
Dorvilier were the defendants in the United States
District Court and the appellants in the United States
Court of Appeals.
Respondents (identified below) were the plaintiffs in
the District Court and the appellees in the Court of
Appeals.
Claudia Gayle, Individually, On Behalf of All Others
Similarly Situated and as Class Representative, Aline
Antenor, Anne C. DePasquale, Annabel Llewellyn
Henry, Eva Myers Granger, Lindon Morrison, Natalie
Rodriguez, Jacqueline Ward, Dupont Bayas, Carol P.
Clunie, Ramdeo Chankar Singh, Christaline Pierre,
Lemonia Smith, Barbara Tull, Henrick Ledain, Merika
Paris, Edith Mukardi, Martha Ogun Jance, Merlyn
Patterson, Alexander Gumbs, Serojnie Bhog, Genevieve
Barbot, Carole Moore, Raquel Francis, Marie Michelle
Gervil, Nadette Miller, Paulette Miller, Bendy Pierre
Joseph, Rose Marie Zephirin, Sulaiman Ali El, Debbie
Ann Bromfield, Rebecca Pile, Maria Garcia Shands,
Angela Collins, Brenda Lewis, Soucianne Querette,
Sussan Ajiboye, Jane Burke Hylton, Willie Evans,
Pauline Gray, Eviarna Toussaint, Geraldine Joazard,
Niseekah Y. Evans, Getty Rocourt, Catherine Modeste,
Marguerite L. Bhola, Yolanda Robinson, Karlifa Small,
Joan Ann R. Johnson, Lena Thompson, Mary A. Davis,
Nathalie Francois, Anthony Headlam, David Edward
Levy, Maud Samedi, Bernice Sankar, Marlene Hyman

iii
STATEMENT OF RELATED PROCEEDINGS
• Gayle v. Harry’s Nurses Registry, Inc., No. 07CV-4672 (CPS) (MDG), 2009 WL 605790, at *1
(E.D.N.Y. Mar. 9, 2009) (granting judgment for
plaintiffs and notice of collective action under
Section 216(b));
• Gayle v. Harry’s Nurses Registry, Inc., No. 07CV-4672 (NGG) (MDG), 2010 WL 5477727, at
*2, 5 (E.D.N.Y. Dec. 30, 2010) (granting plaintiff
Gayle’s summary judgment motion as to
damages, but denying summary judgment as to
damages for remaining plaintiffs);
• Gayle v. Harry’s Nurses Registry, Inc., 594
F. App’x 714 (2d Cir. 2014) (affirming judgment),
cert. denied, 135 S. Ct. 2059 (Mem) (U.S. 2015);
• Gayle v. Harry’s Nurses Registry, No. 07-CV4672 (NGG) (MDG), 2018 WL 4771885 (E.D.N.Y.
Sept. 30, 2018) (denying defendants’ motion for
sanctions against plaintiffs’ counsel for improper
accounting and collection of more than due in
attorneys’ fees), aff’d, __ F. App’x __, 2020 WL
402452 (2d Cir. 2020).
There are no additional proceedings in any court
that are directly related to this case.

iv
CORPORATE DISCLOSURE STATEMENT
Petitioner has no parent corporations and no
publicly held corporations that own 10% or more of its
stock.

v
TABLE OF CONTENTS
QUESTION PRESENTED . . . . . . . . . . . . . . . . . . . . i
PARTIES TO THE PROCEEDINGS. . . . . . . . . . . . . ii
STATEMENT OF RELATED PROCEEDINGS . . . iii
CORPORATE DISCLOSURE STATEMENT . . . . . iv
TABLE OF AUTHORITIES. . . . . . . . . . . . . . . . . . . vii
PETITION FOR A WRIT OF CERTIORARI . . . . . . 1
OPINIONS BELOW. . . . . . . . . . . . . . . . . . . . . . . . . . 1
JURISDICTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
STATUTORY PROVISIONS INVOLVED . . . . . . . . 1
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . 7
REASONS FOR GRANTING THE PETITION . . . . 9
The Court should clarify that 29 U.S.C. § 216(b)
does not provide a private right of action to an
employee until the employer is found to have
violated “the provisions of section 206 or section
207” of the Fair Labor Standards Act . . . . . . . . . 9
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18
APPENDIX
Appendix A Summary Order in the United States
Court of Appeals for the Second Circuit
(January 24, 2020) . . . . . . . . . . . . App. 1

vi
Appendix B Order Adopting the Magistrate’s
Report and Recommendations and
Denying Motion for Sanctions in the
United States District Court for the
Eastern District of New York.
(September 30, 2018) . . . . . . . . . . App. 8
Appendix C M a g i s t r a t e ’ s
Report and
Recommendation on Defendants’
Motion for Sanctions in the United
States District Court for the Eastern
District of New York
(September 11, 2018) . . . . . . . . . App. 15
Appendix D Order in the United States Court of
Appeals for the Second Circuit
(December 8, 2014) . . . . . . . . . . . App. 43

vii
TABLE OF AUTHORITIES
CASES
Alexander v. Sandoval,
532 U.S. 275, 121 S. Ct. 1511,
149 L. Ed. 2d 517 (2001) . . . . . . . . . . . . . . . . 13, 17
Brooklyn Sav. Bank v. O’Neil,
324 U.S. 697, 65 S. Ct. 895,
89 L. Ed. 1296 (1945) . . . . . . . . . . . . . . . . . . . . . . 9
Bros. v. Portage Nat. Bank,
No. CIV A 306-94, 2007 WL 965835
(W.D. Pa. Mar. 29, 2007) . . . . . . . . . . . . . . . . . . 16
Donovan v. Univ. of Texas at El Paso,
643 F.2d 1201 (5th Cir. 1981). . . . . . . . . . . . . . . 16
E.E.O.C. v. Pan American World Airways, Inc.,
897 F.2d 1499 (9th Cir.), cert. denied,
498 U.S. 815, 111 S. Ct. 55,
112 L.Ed.2d 31 (1990) . . . . . . . . . . . . . . . . . . 15, 16
Hodgson v. Wheaton Glass Co.,
446 F.2d 527 (3d Cir. 1971) . . . . . . . . . . . . . . . . 17
Hoffmann-La Roche v. Sperling,
493 U.S. 165, 110 S. Ct. 482,
107 L.Ed.2d 480 (1989) . . . . . . . . . . . . . . . . . . . . 14
Marshall v. Coach House Rest., Inc.,
457 F. Supp. 946 (S.D.N.Y. 1978). . . . . . . . . . . . 17
Michigan Corr. Org. v. Michigan Dep’t of Corr.,
774 F.3d 895 (6th Cir. 2014). . . . . . . . . . . . . . . . 12

viii
Oral v. Aydin Corp.,
No. 98-CV-6394, 2001 WL 1735063
(E.D. Pa. Oct. 31, 2001) . . . . . . . . . . . . . . . . . . . 16
Rossi v. Associated Limousine Servs., Inc.,
438 F. Supp. 2d 1354 (S.D. Fla. 2006) . . . . . . . . 16
San Antonio Metro. Transit Auth. v. McLaughlin,
876 F.2d 441 (5th Cir. 1989). . . . . . . . . . . . . . . . 15
Stoneridge Inv. Partners, LLC v. Sci.-Atlanta,
552 U.S. 148, 128 S. Ct. 761,
169 L. Ed. 2d 627 (2008) . . . . . . . . . . . . . . . . 13, 17
Will v. Mich. Dep’t of State Police,
491 U.S. 58, 109 S. Ct. 2304,
105 L.Ed.2d 45 (1989) . . . . . . . . . . . . . . . . . . . . . 12
Wirtz v. Robert E. Bob Adair, Inc.,
224 F. Supp. 750 (W.D. Ark. 1963) . . . . . . . . . . 15
STATUTES
15 U.S.C. § 77k . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
28 U.S.C. § 1254(1). . . . . . . . . . . . . . . . . . . . . . . . . . . 1
29 U.S.C. § 201 et seq . . . . . . . . . . . . . . . . . . . . passim
29 U.S.C. § 206 . . . . . . . . . . . . . . . . . . . . . . . . . passim
29 U.S.C. § 207 . . . . . . . . . . . . . . . . . . . . . . . . . passim
29 U.S.C. § 211(c) . . . . . . . . . . . . . . . . . . . . . . . . . . . 16
29 U.S.C. § 215 . . . . . . . . . . . . . . . . . . . . . . . . . . 5, 6, 7
29 U.S.C. § 216(b). . . . . . . . . . . . . . . . . . . . . . . passim
29 U.S.C. § 216(c) . . . . . . . . . . . . . . . . . . . . . 1, 3, 4, 15

ix
Portal–to–Portal Act, Pub.L. No. 80–49,
61 Stat. 84 (1947), . . . . . . . . . . . . . . . . . . . . . . . 14

1
PETITION FOR A WRIT OF CERTIORARI
Harry’s Nurses Registry and Harry Dorvilier
petition this Court for a writ of certiorari to review the
Orders and Decisions of the Court of Appeals and
District Court entered in this action.
OPINIONS BELOW
The January 24, 2020 Summary Order of the
United States Court of Appeals for the Second Circuit
is unpublished and appears at Appendix A. The
September 30, 2018 Order & Reasons of the United
States District Court for the Eastern District of New
York is unpublished and appears at Appendix B (with
Appendix C containing the Magistrate’s Report and
Recommendation).
The United States Court of
Appeals’ Opinion on the prior appeal in this matter
(Gayle v. Harry’s Nurses Registry, Inc., 594 F. App’x
714 (2d Cir. 2014)) is unpublished and appears at
Appendix D.
JURISDICTION
The Summary Order of the United States Court of
Appeals was entered on January 24, 2020. App. 1.
This Court’s jurisdiction is invoked under 28 U.S.C.
§ 1254(1).
STATUTORY PROVISIONS INVOLVED
29 U.S.C. § 216 (b)-(c) provides as follows:
(b) Damages; right of action; attorney’s fees and
costs; termination of right of action

2
Any employer who violates the provisions of
section 206 or section 207 of this title shall be
liable to the employee or employees affected in
the amount of their unpaid minimum wages, or
their unpaid overtime compensation, as the case
may be, and in an additional equal amount as
liquidated damages. Any employer who violates
the provisions of section 215(a)(3) of this title
shall be liable for such legal or equitable relief as
may be appropriate to effectuate the purposes of
section 215(a)(3) of this title, including without
limitation employment, reinstatement,
promotion, and the payment of wages lost and
an additional equal amount as liquidated
damages. Any employer who violates section
203(m)(2)(B) of this title shall be liable to the
employee or employees affected in the amount of
the sum of any tip credit taken by the employer
and all such tips unlawfully kept by the
employer, and in an additional equal amount as
liquidated damages. An action to recover the
liability prescribed in the preceding sentences
may be maintained against any employer
(including a public agency) in any Federal or
State court of competent jurisdiction by any one
or more employees for and in behalf of himself or
themselves and other employees similarly
situated. No employee shall be a party plaintiff
to any such action unless he gives his consent in
writing to become such a party and such consent
is filed in the court in which such action is
brought. The court in such action shall, in
addition to any judgment awarded to the
plaintiff or plaintiffs, allow a reasonable

3
attorney’s fee to be paid by the defendant, and
costs of the action. The right provided by this
subsection to bring an action by or on behalf of
any employee, and the right of any employee to
become a party plaintiff to any such action, shall
terminate upon the filing of a complaint by the
Secretary of Labor in an action under section
217 of this title in which (1) restraint is sought
of any further delay in the payment of unpaid
minimum wages, or the amount of unpaid
overtAme compensation, as the case may be,
owing to such employee under section 206 or
section 207 of this title by an employer liable
therefor under the provisions of this subsection
or (2) legal or equitable relief is sought as a
result of alleged violations of section 215(a)(3) of
this title.
(c) Payment of wages and compensation; waiver
of claims; actions by the Secretary; limitation of
actions
The Secretary is authorized to supervise the
payment of the unpaid minimum wages or the
unpaid overtime compensation owing to any
employee or employees under section 206 or
section 207 of this title, and the agreement of
any employee to accept such payment shall upon
payment in full constitute a waiver by such
employee of any right he may have under
subsection (b) of this section to such unpaid
minimum wages or unpaid overtime
compensation and an additional equal amount
as liquidated damages. The Secretary may bring

4
an action in any court of competent jurisdiction
to recover the amount of unpaid minimum
wages or overtime compensation and an equal
amount as liquidated damages. The right
provided by subsection (b) to bring an action by
or on behalf of any employee to recover the
liability specified in the first sentence of such
subsection and of any employee to become a
party plaintiff to any such action shall terminate
upon the filing of a complaint by the Secretary in
an action under this subsection in which a
recovery is sought of unpaid minimum wages or
unpaid overtime compensation under sections
206 and 207 of this title or liquidated or other
damages provided by this subsection owing to
such employee by an employer liable under the
provisions of subsection (b), unless such action is
dismissed without prejudice on motion of the
Secretary. Any sums thus recovered by the
Secretary of Labor on behalf of an employee
pursuant to this subsection shall be held in a
special deposit account and shall be paid, on
order of the Secretary of Labor, directly to the
employee or employees affected. Any such sums
not paid to an employee because of inability to
do so within a period of three years shall be
covered into the Treasury of the United States
as miscellaneous receipts. In determining when
an action is commenced by the Secretary of
Labor under this subsection for the purposes of
the statutes of limitations provided in section
6(a) of the Portal-to-Portal Act of 1947, it shall
be considered to be commenced in the case of
any individual claimant on the date when the

5
complaint is filed if he is specifically named as a
party plaintiff in the complaint, or if his name
did not so appear, on the subsequent date on
which his name is added as a party plaintiff in
such action. The authority and requirements
described in this subsection shall apply with
respect to a violation of section 203(m)(2)(B) of
this title, as appropriate, and the employer shall
be liable for the amount of the sum of any tip
credit taken by the employer and all such tips
unlawfully kept by the employer, and an
additional equal amount as liquidated damages.
29 U.S.C. § 215 provides as follows:
§ 215. Prohibited acts; prima facie evidence
(a) After the expiration of one hundred and
twenty days from June 25, 1938, it shall be
unlawful for any person—
(1) to transport, offer for transportation, ship,
deliver, or sell in commerce, or to ship, deliver,
or sell with knowledge that shipment or delivery
or sale thereof in commerce is intended, any
goods in the production of which any employee
was employed in violation of section 206 or
section 207 of this title, or in violation of any
regulation or order of the Secretary issued under
section 214 of this title; except that no provision
of this chapter shall impose any liability upon
any common carrier for the transportation in
commerce in the regular course of its business of
any goods not produced by such common carrier,
and no provision of this chapter shall excuse any

6
common carrier from its obligation to accept any
goods for transportation; and except that any
such transportation, offer, shipment, delivery, or
sale of such goods by a purchaser who acquired
them in good faith in reliance on written
assurance from the producer that the goods were
produced in compliance with the requirements of
this chapter, and who acquired such goods for
value without notice of any such violation, shall
not be deemed unlawful;
(2) to violate any of the provisions of section 206
or section 207 of this title, or any of the
provisions of any regulation or order of the
Secretary issued under section 214 of this title;
(3) to discharge or in any other manner
discriminate against any employee because such
employee has filed any complaint or instituted or
caused to be instituted any proceeding under or
related to this chapter, or has testified or is
about to testify in any such proceeding, or has
served or is about to serve on an industry
committee;
(4) to violate any of the provisions of section 212
of this title;
(5) to violate any of the provisions of section
211(c) of this title, or any regulation or order
made or continued in effect under the provisions
of section 211(d) of this title, or to make any
statement, report, or record filed or kept
pursuant to the provisions of such section or of
any regulation or order thereunder, knowing

7
such statement, report, or record to be false in a
material respect.
(b) For the purposes of subsection (a)(1) proof
that any employee was employed in any place of
employment where goods shipped or sold in
commerce were produced, within ninety days
prior to the removal of the goods from such place
of employment, shall be prima facie evidence
that such employee was engaged in the
production of such goods.
STATEMENT OF THE CASE
This is an action by nurses claiming alleged unpaid
overtime from a nursing staffing company and its
owner.
The owner, Mr. Dorvilier, is a hard-working, highly
motivated and successful immigrant from Haiti. His
company, Harry’s Nurses Registry, Inc., is a domestic
corporation organized under the laws of the State of
New York with its principal place of business in New
York City, at 88-25 163rd Street, Jamaica. Harry’s
Nurses refers temporary nurses, nurse’s aides, and
housekeepers to patients confined to their homes in
and around New York City.
This litigation began in 2007, when a nurse named
Claudia Gayle, and other nurses recruited to join Ms.
Gayle’s lawsuit, sued Mr. Dorvilier and his company
under the Fair Labor Standards Act (“FLSA”), 29
U.S.C. § 201 (West) et. seq, claiming they were due
unpaid overtime wages, liquidated damages, and (for
plaintiffs’ counsel who started the lawsuit) attorneys’
fees. App. 46-51.

8
A central issue in the litigation was whether the
nurses who sued were employees entitled to overtime
pay under the FLSA. Defendants contended that they
were not; that Harry’s Nurses acted as a referral
service, not an employer, and that the FLSA therefore
did not apply to the plaintiffs’ claims. The District
court ruled that the nurses were employees under the
FLSA, however, granting plaintiffs’ motion for
summary judgment and entering judgments against
defendants for $931,959.39 (in compensatory damages
plus attorneys’ fees). Defendants appealed, but the
Court of Appeals affirmed the judgment. Gayle v.
Harry’s Nurses Registry, Inc., 594 F. App’x 714, 716 (2d
Cir. 2014).
Defendant petitioned for a writ of
certiorari, but this Court denied the petition. Harry’s
Nurses Registry, Inc. v. Gayle, 135 S. Ct. 2059 (U.S.,
May 04, 2015).
The litigation continued over enforcement of the
judgment.
Defendants contended that plaintiffs’
counsel did not properly collect the judgment, moving
in the District court to remedy the improper collection
by plaintiffs’ counsel and to impose sanctions on
plaintiffs’ counsel for counsel’s charged improper
accounting of the monies collected (defendants
contended that plaintiffs’ counsel effectively “double
dipped” on the counsel fees to which he was entitled
and thereby collected from defendants more than was
legally owed under the FLSA). Plaintiffs’ counsel
opposed defendants’ motion. Following receipt of a
Report and Recommendations by United States
Magistrate Court Judge Marilyn Go, and objections
thereto by the parties, the District court, by Order and
Decision of September 30, 2018, adopted in full the

9
Magistrate Judge’s Report and Recommendations and
denied defendants’ motion for sanctions and related
relief. App. 8-42.
Defendants appealed the District court’s order, but
the Court of Appeals affirmed the decision. In
affirming the District court’s decision to deny relief to
defendants on the charged improper collection of the
judgment by plaintiffs’ counsel, the Court of Appeals
noted and relied on the prior grant of summary
judgment for plaintiffs in the litigation and entry of
judgments for plaintiffs against defendants for the
unpaid wages, liquidated damages, attorneys’ fees
afforded by the FLSA on which the plaintiff nurses
rested their claims for relief. App. 1-7.
REASON FOR GRANTING THE PETITION
The Court should clarify that 29 U.S.C.
§ 216(b) does not provide a private right of
action to an employee until the employer is
found to have violated “the provisions of
section 206 or section 207” of the Fair
Labor Standards Act.
Enacted in 1938, the FLSA, § 201 et seq., was
designed “to aid the unprotected, unorganized and
lowest paid of the nation’s working population; that is,
those employees who lacked sufficient bargaining
power to secure for themselves a minimum subsistence
wage.” Brooklyn Sav. Bank v. O’Neil, 324 U.S. 697,
707 n. 18, 65 S. Ct. 895, 89 L. Ed. 1296 (1945). There
are two main provisions in this regard: per 29 U.S.C.
§ 206, an employer must pay its employees at least a
specified minimum hourly wage for work performed,

10
and per 29 U.S.C. § 207, an employer must pay its
employees one and one-half times the regular wage for
hours worked in excess of 40 hours per week.
These provisions are enforced, first and foremost, by
the Department of Labor’s Wage and Hour Division’s
enforcement section in charge of the FLSA, carried out
by investigators across the United States. These
investigators gather data on wages, hours, and other
employment conditions and practices in order to
determine an employer’s compliance with the FLSA’s
governing provisions. Where violations are found,
these investigators may recommend changes in
employment practices to bring an employer into
compliance. Willful violations of an employer may be
prosecuted criminally with fines up to $10,000.
This Petition presents a narrow question about the
contours of the private right of action which Congress
provided in the FLSA. 29 U.S.C. § 216(b) of the Act
provides, “Any employer who violates the provisions
of section 206 or section 207 of this title shall be
liable to the employee or employees affected in the
amount of their unpaid minimum wages, or their
unpaid overtime compensation, as the case may be, and
in an additional equal amount as liquidated damages.”
The subsection further provides, “An action to
recover the liability prescribed in the preceding
sentences may be maintained against any employer
(including a public agency) in any Federal or State
court of competent jurisdiction by any one or more
employees for and in behalf of himself or themselves
and other employees similarly situated.” (emphasis
added).

11
We submit that the highlighted language of these
provisions shows that in order for an employee “to
recover the liability prescribed” by the FLSA from his
or her employer, there must first be a finding that the
employer has violated Section 206 or Section 207 of the
Act – a condition precedent that must occur before the
employee’s private right of action is triggered.
Section 216(b) is an enforcement mechanism, in
other words, enabling the employee to, collect whatever
damages were caused to the employee by the employer
having violated Section 206 or Section 207.
This
construction is supported by the statutory language
conditioning an employee’s right of action on an
employer “who violates” Sections 206 or 207, rather
than language providing (for example) an employer
“alleged to have” or “charged with” violating Sections
206 or 207. The following language of the Act -- “Any
employer who violates … shall be liable to the
employee or employees affected in the amount of their
unpaid minimum wages, or their unpaid overtime
compensation, as the case may be, and in an additional
equal amount as liquidated damages” – also supports
the conclusion that the employer’s violation must exist
first, as a condition precedent, before the employee’s
private right of action to collect the damages is
statutorily-triggered.
So construed, plaintiffs’ Complaint filed in this
action was fundamentally flawed because there was not
a prior finding that Mr. Dorvilier and his company
violated Section 206 or Section 207 when plaintiffs
instituted their lawsuit. Plaintiffs only alleged that
defendants violated Section 207’s overtime pay

12
provision. There was not a finding beforehand in this
regard with respect to nurse Gayle or any of the other
nurses ultimately named as plaintiffs in the Complaint
filed.
Without that condition precedent of the
employer’s violation of Section 206 or Section 207,
there was no private right of action “to recover the
liability” prescribed by the FLSA, the District court
lacked subject matter jurisdiction over plaintiffs’
Complaint, and the resulting judgment entered in this
action against defendants and all subsequent orders
premised on the judgment – including the latest orders
regarding collection of the judgment by plaintiffs’
counsel -- are void, we respectfully submit. Cf.
Michigan Corr. Org. v. Michigan Dep’t of Corr., 774
F.3d 895, 902–03 (6th Cir. 2014) (“The FLSA does not
provide a basis for this declaratory judgment action.
The statute, to be sure, provides a private right of
action for compensatory damages to remedy wage-andhour violations. See 29 U.S.C. § 216(b). But that action
exceeds the plaintiffs’ reach. They sued Director Heyns
in his official capacity, and an official-capacity lawsuit
for money damages counts as a lawsuit against the
State. Will v. Mich. Dep’t of State Police, 491 U.S. 58,
71, 109 S. Ct. 2304, 105 L.Ed.2d 45 (1989). As just
noted, we lack jurisdiction over money-damages
lawsuits against a State to enforce the FLSA. When a
court lacks jurisdiction over the underlying right of
action, it lacks jurisdiction over a related declaratory
judgment action as well. Skelly Oil, 339 U.S. at 671–72,
70 S. Ct. 876. *** All in all, neither the FLSA nor
§ 1983 nor Ex parte Young provides the private right of
action the officers need to obtain declaratory relief
against Director Heyns. This stops their declaratory
judgment action in its tracks. No private right of action

13
means no underlying lawsuit. No underlying lawsuit
means no jurisdiction. Skelly Oil, 339 U.S. at 671–72,
70 S. Ct. 876. And no jurisdiction means no declaratory
relief.”)
It is important for the Court to clarify the scope of
the private right of action that Congress provided in
Section 216(b) because this affects thousands of
employees and employers throughout our Country.
Such private rights of action must be construed
carefully. In Alexander v. Sandoval, 532 U.S. 275, 121
S. Ct. 1511, 149 L. Ed. 2d 517 (2001), which involved
the interpretation of Title VI of the Civil Rights Act of
1964, the Court observed that “[l]ike substantive
federal law itself, private rights of action to enforce
federal law must be created by Congress.” Alexander,
532 U.S. at 286. Unless the statute evinces an intent
to create a private remedy, “a cause of action does not
exist and courts may not create one, no matter how
desirable that might be as a policy matter, or how
compatible with the statute,” the Court stressed. Id. at
287.
“A statute explicitly creates a private right of action
when the statute contains language that defines a
cause of action. *** Statutes that expressly provide for
a private right of action identify the person(s) able to
bring suit, those that are potentially liable, the forum
for suit, and the potential remedy available.” See
Stoneridge Inv. Partners, LLC v. Sci.-Atlanta, 552 U.S.
148, 166, 128 S. Ct. 761, 169 L. Ed. 2d 627 (2008)
(holding that 15 U.S.C. § 77k provides an express
private right of action because it says that “any person
acquiring such security ... may, either at law or in

14
equity, in any court of competent jurisdiction, sue ...
every person who signed the registration statement”).
The language that Congress employs is the
touchstone for assessing the existence of and, in this
case, the scope of the private right of action. Here,
when Congress enacted the Fair Labor Standards Act
in 1938, it gave employees and their “representatives”
the right to bring actions to recover unpaid
compensation due pursuant to the Act. Hoffmann–La
Roche v. Sperling, 493 U.S. 165, 173, 110 S. Ct. 482,
107 L.Ed.2d 480 (1989). In 1947, however, Congress
enacted the Portal–to–Portal Act, Pub.L. No. 80–49,
§ 5(a), 61 Stat. 84, 87 (1947), which made changes to
the FLSA’s procedures. One such change was to
abolish representative actions by plaintiffs not
themselves possessing a claim. Id. “The relevant
amendment was for the purpose of limiting private
FLSA plaintiffs to employees who asserted claims in
their own right and freeing employers of the burden of
representative actions.” Id. Congress changed the
language of the statute in response to “excessive
litigation spawned by plaintiffs lacking a personal
interest in the outcome.” Hoffmann-La Roche Inc., 493
U.S. at 173; Portal–to–Portal Act of 1947, Pub.L. No.
80–49, § 5(a), 61 Stat. 84, 87 (1947). Likewise,
Congress inserted a requirement that similarly
situated employees must affirmatively “opt in” to an
ongoing FLSA suit by filing express, written consents
in order to become party plaintiffs. This change in
statutory language further restricted the private right
of action provided by the FLSA. Id.

15
Congress has lessened the power of individual
employees to enforce the minimum wage and overtime
provisions of the FLSA, also, by making employees’
enforcement powers dependent upon the actions of the
Secretary of Labor. Under 29 U.S.C. § 216(b), an
employee’s right to bring an action for unpaid
minimum wage or overtime compensation “terminate[s]
upon the filing of a complaint by the Secretary of Labor
in an action under section 217 ... in which ... restraint
is sought of any further delay in the payment of unpaid
minimum wages, or the amount of unpaid overtime
compensation[.]” Similarly, under 29 U.S.C. § 216(c),
an individual employee’s enforcement right
“terminate[s] upon the filing of a complaint by the
Secretary in an action ... in which a recovery is sought
of unpaid minimum wages or unpaid overtime
compensation [.]”
Private lawsuits by employees are secondary,
Congress instructed, to government enforcement
actions. Cf. E.E.O.C. v. Pan American World Airways,
Inc., 897 F.2d 1499, 1505 (9th Cir.), cert. denied, 498
U.S. 815, 111 S. Ct. 55, 112 L.Ed.2d 31 (1990) (“private
lawsuits are secondary in the statutory scheme”); San
Antonio Metro. Transit Auth. v. McLaughlin, 876 F.2d
441, 445 (5th Cir. 1989) (FLSA “allows suits involving
the Secretary to take precedence over employee actions
involving the same employer.”); Wirtz v. Robert E. Bob
Adair, Inc., 224 F. Supp. 750, 755 (W.D. Ark. 1963)
(“the filing of the suit [by the Secretary of Labor]
terminates the section 16(b) rights of employees”).
Congress inserted these provisions into the FLSA to
“relieve the courts and employers of the burden of
litigating a multiplicity of suits based on the same

16
violations of the act by an employer.” 1961
U.S.C.C.A.N. at 1659. They also serve to “substantially
reduce the possibility of inconsistent adjudications[.]”
Donovan v. Univ. of Texas at El Paso, 643 F.2d 1201,
1207 (5th Cir. 1981); E.E.O.C., 897 F.2d at 1506.
Congress has provided for other limitations on
private actions, too, which courts have recognized.
Though one of the FLSA’s main provisions is its
recordkeeping requirements (per 29 U.S.C. §§ 206, 207,
211(c)), federal courts have held that the statute does
not provide a private right of action to enforce claimed
record keeping violations. See, e.g., Oral v. Aydin
Corp., No. 98-CV-6394, 2001 WL 1735063, at *1 (E.D.
Pa. Oct. 31, 2001) (“there is no private right of action to
enforce the recordkeeping provisions of the FLSA”);
Rossi v. Associated Limousine Servs., Inc., 438 F. Supp.
2d 1354, 1366 (S.D. Fla. 2006). Federal courts have
held, also, that Congress did not empower an employee
to maintain a private right of action under the FLSA
for alleged unpaid non-overtime compensation for an
employee who was paid at least the minimum wage,
even if the employee was paid less than his or her
hourly rate. Bros. v. Portage Nat. Bank, No. CIV A
306-94, 2007 WL 965835, at *5 (W.D. Pa. Mar. 29,
2007). “The vast majority of federal courts hold that”
these so-called “gap-time” claims “do not come within
the FLSA’s purview.” Id. (collecting cases).
This Petition presents a similar question of
statutory construction. We submit that construing 29
U.S.C. § 216(b) to require as a condition precedent to a
private action a finding that the employer has violated
Section 206 or Section 207 is consistent with the

17
FLSA’s purpose to “secur[e] to employees restitution of
statutorily mandated wages” (Marshall v. Coach House
Rest., Inc., 457 F. Supp. 946, 951 (S.D.N.Y. 1978)) but
also the Act’s primary emphasis of elevating
governmental regulation and enforcement of employers
over private claims of violation by employees. The
FLSA ensures that individual employees will be
compensated within the dictates of federal law. Under
the statutory scheme, actions by the Secretary of Labor
take precedence over actions by employees. The 1961
amendments to the FLSA (which granted more power
to the Secretary of Labor) reflect that Congress
changed the “governmental policy toward enforcement
... from reliance primarily on private enforcement to
reliance on enforcement by the Secretary.” Hodgson v.
Wheaton Glass Co., 446 F.2d 527, 535 (3d Cir. 1971).
Legal remedies to enforce federal statutes must stem
from the legislatively enacted statute, not from courtcreated doctrines. The choice to provide “private rights
of action to enforce federal law,” like the choice to enact
“substantive federal law itself,” rests in Congress’s
hands. Alexander, 532 U.S. at 286. Federal courts
may not create what Congress did not. Stoneridge Inv.
Partners, LLC v. Scientific–Atlanta, Inc., supra, 552
U.S. at 164–65. The Court should grant this Petition
to address the proper construction of Section 216(b)
and, we submit, hold that Congress’ language provides
a private right of action to an affected employee to
recover the “liability” of the employer under the Act
only after the employer has first been found to have
violated Section 206 or Section 207 of the FLSA.

18
CONCLUSION
The Court should grant this Petition for a Writ of
Certiorari.
Respectfully submitted,
MICHAEL CONFUSIONE
Counsel of Record
HEGGE & CONFUSIONE, LLC
P.O. Box 366
Mullica Hill, NJ 08062-0366
(800) 790-1550
mc@heggelaw.com
Counsel for Petitioners
Dated: April 7, 2020

